No. 21-145
IN THE

�upreme <!Court of tbe mlniteb $,tates
GORDON COLLEGE, ET AL.,
Petitioners,
V.

MARGARET DEWEESE-BOYD,
Respondent.

CERTIFICATE OF SERVICE
I certify that on August 31, 2021, I served the Brief of Association of Christian
Schools International asAmicus Curiae in Support of Petitioners by e-mail on counsel
for petitioners and respondent, who consented to electronic service pursuant to this
Court's COVID-19 order, which remains in effect until September 1, 2021.
John J. Busch
ALLIANCE DEFENDING FREEDOM
440 First Street, NW
Suite 600
Washington, DC 20001
jbursch@adflegal.org
Counsel for Petitioners

Hillary Ada Schwab
FAIR WORK, P.C.
192 South Street
Suite 450
Boston, MA 02111
hillary@fairworklaw.com
Counsel for Respondent

Cory R. Liu
ASHCROFT LAW FIRM LLC
919 Congress Avenue
Suite 1325
Austin, TX 78701
(512) 370-1800
cliu@ashcroftlawfirm.com
August 31, 2021

